                          U.S. Department of Agriculture

                              Office of Inspector General
                                         Northeast Region




               Audit Report

Office of Procurement and Property Management
Review of Acquisition Planning and Processing




                               Report No. 89017-01-Hy
                                       February 2007
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


February 9, 2007


REPLY TO
ATTN OF:      89017-01-Hy

TO:           Boyd K. Rutherford
              Assistant Secretary for Administration

ATTN:         Art Goldman
              Audit Liaison
              Office of Operations
              Departmental Administration

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Office of Property and Procurement Management (OPPM) Review of
              Acquisition Planning and Processing


This report presents the results of our audit of the management U.S. Department
of Agriculture’s Acquisition Planning and Processing by the OPPM. This report
identified that the OPPM had not developed an adequate system of oversight for
component agency acquisition activity. Your response to the official draft, dated
January 18, 2007, is included as exhibit A. Excerpts of your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations
section of the report. Based on your response, we were able to reach management
decision on the report’s two recommendations. Please follow your internal agency
procedures for reporting final action to the Office of the Chief Financial Officer.

Please note that Departmental Regulation 1720-1 requires final action to be completed
within 12 months of management decision. We appreciate the courtesies and cooperation
extended to us by members of your staff during this audit.
Executive Summary
Office of Procurement and Property Management Review of Acquisition Planning and
Processing (Audit Report No. 89017-01-Hy)

Results in Brief                     This report presents the results of the Office of Inspector General’s (OIG)
                                     review of the Departmental Administration (DA), Office of Procurement and
                                     Property Management’s (OPPM) oversight of acquisition planning and
                                     processing among the U.S. Department of Agriculture (USDA) component
                                     agencies. Our objective was to evaluate OPPM’s internal control and
                                     management practices directed to minimize fraud, waste, and abuse, and to
                                     maximize the effectiveness of USDA contracting activities. Specifically, we
                                     assessed whether OPPM maintains an appropriate system of internal control
                                     over contract functions including oversight of the procurement activities of
                                     USDA component agencies.

                                     In fiscal year (FY) 2005, USDA obligated approximately $4.4 billion for
                                     products and services. Purchases of subsistence/agricultural (food)
                                     commodities from commercial sources represented $2.2 billion of what
                                     USDA bought and purchase card transactions accounted for another
                                     $491 million in services. The remaining $1.7 billion was for non-commodity
                                     and non-purchase card acquisitions. Our review was limited to controls over
                                     non-commodity and non-purchase card contracting activity, as purchase card
                                     and commodity operations have been the subject of recent OIG audits.
                                     Hurricane Katrina occurred during our fieldwork period and as OIG has
                                     ongoing reviews of USDA Hurricane Relief activities, we did not include
                                     these activities as part of this audit.

                                     OPPM previously recognized that problems existed in the USDA component
                                     agency legacy acquisition systems and that the systems did not provide for
                                     standardized business processes or suitable enterprise-wide controls of
                                     acquisition activity. In response, USDA designed and implemented the
                                     Integrated Acquisition System (IAS) to provide a single enterprise-wide
                                     acquisition system. 1 OPPM officials stated they relied primarily upon the
                                     IAS to ensure component agencies complied with Government and USDA
                                     acquisition policies. We found IAS had the potential to aid in meeting control
                                     objectives; however, it does not provide control over all areas and by itself
                                     cannot ensure that all control objectives of the acquisition process are met.
                                     OPPM did not implement procedures to confirm that component agencies
                                     comply with requirements not controlled by IAS. For example, IAS cannot
                                     fully ensure compliance with such requirements as issuing solicitations and
                                     monitoring contractor performance. As a result, USDA management has


1
    We did not audit IAS operations and are expressing no opinion on the accuracy of the system’s description or its operations. At the time of our
    fieldwork IAS was not fully operational throughout USDA.

USDA/OIG-AUDIT No. 89017-01-Hy                                                                                                            Page i
                   reduced assurance that component agencies followed all procurement
                   requirements and that taxpayer funds are protected from waste and abuse.

                   Additionally, we found that OPPM has not upgraded the Automated
                   Workforce Tracking System (AWTS). OPPM developed the AWTS to meet
                   Governmentwide mandates requiring executive agencies to collect and
                   maintain standard acquisition workforce personnel data in a management
                   information system.

Recommendations
In Brief           We recommend that OPPM develop and implement: (1) procedures to ensure
                   that component agencies comply with established acquisition requirements
                   which are not controlled by IAS, and (2) a plan to expand the data handling
                   capabilities of the AWTS to ensure it can handle the volume of records from
                   all component agencies.

Agency Response
                   OPPM agreed that additional controls through process reviews and increased
                   IAS functionality would strengthen oversight of component agency activities.
                   OPPM plans to issue additional policy to component agencies to increase
                   solicitation and proposal evaluations, strengthen component agency
                   acquisition strategies, and stress the importance of monitoring of contractor
                   performance. Additionally agencies will be required to periodically report to
                   OPPM the results of the reviews. OPPM will also ensure the data handling
                   capabilities of the AWTS can handle the volume of records.
OIG Position
                   We concur with OPPM’s response and have reached management decision
                   for the two recommendations within this report.




USDA/OIG-AUDIT No. 89017-01-Hy                                                           Page ii
Abbreviations Used in This Report

AGAR               Agriculture Acquisition Regulation
AWTS               Automated Workforce Tracking System
CAO                Chief Acquisition Officer
C.F.R.             Code of Federal Regulations
DA                 Departmental Administration
FAR                Federal Acquisition Regulation
FS                 Forest Service
FY                 Fiscal Year
IAS                Integrated Acquisition System
OIG                Office of Inspector General
OMB                Office of Management and Budget
OPPM               Office of Procurement and Property Management
P.L.               Public Law
SARA               Services Acquisition Reform Act
SPE                Senior Procurement Executive
USDA               U.S. Department of Agriculture




USDA/OIG-AUDIT No. 89017-01-Hy                                     Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. OPPM Acquisition Oversight .......................................................................................... 3

        Finding 1             OPPM Has Not Developed an Adequate System of Oversight for
                              Component Agency Acquisition Activities............................................................. 3
                                 Recommendation 1 .......................................................................................... 5
                                 Recommendation 2 .......................................................................................... 6

Scope and Methodology.......................................................................................................................... 7

Exhibit A – Agency Response ................................................................................................................ 8




USDA/OIG-AUDIT No. 89017-01-Hy                                                                                                           Page iv
Background and Objectives
Background                            The U.S. Department of Agriculture (USDA) procures the products and
                                      services it needs on a highly decentralized basis. In addition to the Office of
                                      Procurement and Property Management (OPPM), 10 USDA agencies, and
                                      1 USDA mission area have full procurement authority. 2 These purchases
                                      support the delivery of USDA mission-critical activities throughout the
                                      United States and the world. In fiscal year (FY) 2005, USDA obligated
                                      approximately $4.4 billion for products and services.

                                      The Office of Management and Budget (OMB) has issued guidance on
                                      internal control activities for executive branch agencies of the Federal
                                      Government. OMB Circular No. A-123 “Management’s Responsibility for
                                      Internal Control” effective October 1, 2005, states:

                                      •    “Internal control is an integral component of an organization’s
                                           management that provides reasonable assurance that the following
                                           objectives are being achieved: effectiveness and efficiency of operations,
                                           reliability of financial reporting, and compliance with applicable laws and
                                           regulations.”


                                      The Circular states that management is responsible for developing and
                                      maintaining internal control activities that include monitoring. In regards to
                                      monitoring, the Circular establishes that:

                                      •    “Monitoring the effectiveness of internal control should occur in the
                                           normal course of business. In addition, periodic reviews, reconciliations,
                                           or comparisons of data should be included as part of the regular assigned
                                           duties of personnel. Periodic assessments should be integrated as part of
                                           management’s continuous monitoring of internal control, which should be
                                           ingrained in the agency’s operations. If an effective continuous
                                           monitoring program is in place, it can level the resources needed to
                                           maintain effective internal controls throughout the year. ”

                                      The Federal Acquisition Regulation (FAR), located at Title 48 of the Code of
                                      Federal Regulations (C.F.R.) Chapter 1, was established to codify uniform
                                      policies for acquisition of supplies and services by executive agencies
                                      pursuant to the Office of Federal Procurement Policy Act of 1974 (Public
                                      Law (P.L.) 93-400, as amended). The FAR is the primary regulation used by
                                      all Federal executive agencies in the acquisition of supplies and services with
                                      appropriated funds.
2
    Agricultural Marketing Service (commodity purchases only), Agricultural Research Service, Animal and Plant Health Inspection Service, Farm Service
    Agency, Food and Nutrition Service, Food Safety and Inspection Service, Forest Service (FS), National Resources Conservation Service, Office of the
    Chief Financial Officer, OIG, and Rural Development.

USDA/OIG-AUDIT No. 89017-01-Hy                                                                                                               Page 1
                   The Agriculture Acquisition Regulation (AGAR), located at 48 C.F.R. 4,
                   prescribes policies and procedures that implement and supplement the FAR.
                   Additional procurement policy guidance may be found in Departmental
                   regulations.

                   In 2003, Congress sought to improve contract oversight and execution by
                   enacting the Services Acquisition Reform Act (SARA), Title XIV of
                   P.L. 108-136. SARA requires certain civilian executive agencies to designate
                   a non-career Chief Acquisition Officer (CAO). CAOs must have
                   management of acquisition as their primary duty. The provision also requires
                   executive agencies to have a senior procurement executive (SPE) who is
                   responsible for management of the agency’s procurement system.

                   Within USDA, the Assistant Secretary for Administration has been
                   designated as the CAO. OPPM is part of the Departmental Administration
                   (DA) program area and reports to the Assistant Secretary for Administration.
                   OPPM is designated as the oversight agency for acquisition within USDA.
                   The Director of OPPM, who reports to the Assistant Secretary for
                   Administration, has been designated as the SPE. This designation includes
                   monitoring of acquisition training within USDA, issuing of acquisition
                   regulations and directives throughout USDA, and certifying contract
                   specialists. One of OPPM’s primary responsibilities is updating the AGAR
                   and ensuring updated information is relayed to stakeholders.

Objective          Our objective was to evaluate OPPM’s internal control and management
                   practices directed to minimize fraud, waste, and abuse and to maximize the
                   effectiveness of USDA contracting activities. Specifically, we assessed
                   whether OPPM maintained an appropriate system of internal control over
                   contract functions including oversight of the procurement activities of USDA
                   component agencies.

                   To accomplish our objectives, we performed fieldwork at OPPM
                   Headquarters located in Washington, D.C. We reviewed the controls in place
                   at the time of our audit. We conducted our review through interviews and
                   review of Federal and USDA regulations, procedures, and records. We
                   reviewed OPPM controls over the USDA acquisition policymaking and
                   acquisition oversight functions. Our review did not include commodity and
                   purchase card contracting activity.




USDA/OIG-AUDIT No. 89017-01-Hy                                                          Page 2
Findings and Recommendations
Section 1. OPPM Acquisition Oversight



Finding 1              OPPM Has Not Developed an Adequate System of Oversight for
                       Component Agency Acquisition Activities

                       OPPM has not maintained an appropriate system of oversight over all the
                       non-commodity and non-purchase card acquisition processes of component
                       agencies. This occurred because OPPM relied primarily upon the Integrated
                       Acquisition System (IAS) to ensure component USDA agencies complied
                       with Government and USDA acquisition policies. IAS, however, cannot fully
                       ensure compliance with such requirements as issuing solicitations and
                       monitoring contractor performance. OPPM did not implement procedures to
                       confirm that component agencies comply with requirements not controlled by
                       IAS. Accordingly, USDA management has reduced assurance that
                       component agencies followed all acquisition requirements and that taxpayer
                       funds are protected from waste and abuse.

                       OMB Circular No. A-123 “Management’s Responsibility for Internal
                       Control” states that management is responsible for developing and
                       maintaining internal control activities that include monitoring. In regards to
                       monitoring, the Circular establishes that:

                       •   “Monitoring the effectiveness of internal control should occur in the
                           normal course of business. In addition, periodic reviews, reconciliations,
                           or comparisons of data should be included as part of the regular assigned
                           duties of personnel. Periodic assessments should be integrated as part of
                           management’s continuous monitoring of internal control, which should be
                           ingrained in the agency’s operations.”

                       AGAR, Title 48 C.F.R. § 401.6, dated January 1, 2005, states:

                       •    “(a) The authority and responsibility vested in the Secretary to manage
                           USDA's acquisition function is delegated through the Assistant Secretary
                           for Administration to the SPE. This broad authority includes, but is not
                           limited to, the following responsibilities… (5) Evaluating and monitoring
                           the performance of USDA's acquisition system.”

                   OPPM officials stated USDA previously recognized that the component
                   agency legacy systems did not provide standardized business processes or
                   suitable enterprise-wide controls of acquisition activity. In response, USDA
                   designed and implemented IAS to provide a single enterprise-wide
USDA/OIG-AUDIT No. 89017-01-Hy                                                             Page 3
                   acquisition system. OPPM officials stated they relied upon IAS to provide
                   controls over component agency operations. They noted that IAS:

                   •    Eliminated stovepipe systems of component agencies;
                   •    Interfaced with the corporate USDA accounting system;
                   •    Provided full commitment accounting;
                   •    Enabled the standardization of policies; and
                   •    Divided accountability and authority between users of the system.

                   We did not audit IAS operations; therefore, we are providing no opinion on
                   OPPM’s description of the system or the effectiveness of its operations. At
                   the time of our fieldwork, IAS was not fully operational throughout USDA.

                    As described, IAS will aid in meeting control objectives over several areas
                    of the acquisition process. IAS produces a daily transaction report for
                    management which provides information on system usage, transaction totals,
                    outstanding transactions, and corporate accounting system approvals.
                    Reports on help desk operations are also available. However, it does not
                    provide control over all areas of the acquisition process and by itself cannot
                    ensure that taxpayers’ funds are protected from waste or abuse. For example,
                    IAS cannot fully ensure compliance with requirements over:

                    •   Issuing solicitations;
                    •   Handling proposals;
                    •   Evaluating proposals; and
                    •   Monitoring contractor performance.

                   OPPM did not implement procedures to confirm that component USDA
                   agencies comply with requirements not controlled by IAS. No controls, such
                   as direct reviews by OPPM or alternatives such as mandated internal
                   assessments, peer reviews consisting of component agency procurement staff
                   reviewing each others operations, or periodic reporting to OPPM of results of
                   any component agency internal reviews, had been established. OPPM
                   officials stated that they have not performed direct oversight reviews since
                   the early 1990s, because acquisition activity is delegated to component
                   agencies. Further, they informed us that their budget requests to fund staff
                   positions to perform oversight of component agency contracting functions
                   have been repeatedly denied by Congress. OPPM officials did not have
                   documentation to support these requests.

                   We also found incomplete data involving the Acquisition Workforce
                   Tracking System (AWTS). OPPM needs to upgrade the AWTS so that the
                   system can handle the volume of data from all component agencies. OPPM
                   developed the AWTS to meet Governmentwide mandates requiring executive
                   agencies to collect and maintain standard acquisition workforce personnel

USDA/OIG-AUDIT No. 89017-01-Hy                                                              Page 4
                   data in a management information system. Component agencies are
                   responsible for updating and maintaining their agency’s training records
                   using the AWTS. AWTS data elements include name, agency, acquisition
                   career specialty, training, and contracting officer authorities. OPPM
                   personnel informed us that while the system had data for most component
                   agencies, few records for FS employees exist, because AWTS did not have
                   the storage capacity to handle the high number of FS employees. Further
                   OPPM had not established a timeframe to obtain the FS information. As the
                   FS employed 528 (52 percent) of USDA’s 1,016 GS-1102 Contracting
                   Specialists and GS-1105 Purchasing Agents in FY 2005, this represents a
                   substantial gap in data.

                   We concluded that although OPPM has taken steps to improve the control
                   over component agency acquisition activities by designing and implementing
                   IAS, this system does not control all the processes in the acquisition process.
                   As a result, additional oversight of component agency activities is needed to
                   ensure compliance with procurement requirements such as issuing
                   solicitation and monitoring contractor performance, and to protect taxpayer
                   funds from waste and abuse. OPPM needs to develop oversight controls for
                   acquisition processes which are not controlled by IAS.

Recommendation 1

                   Develop and implement additional procedures to ensure that component
                   agencies comply with established acquisition requirements which are not
                   controlled by IAS.

                   Agency Response

                   OPPM agreed that additional controls through process reviews and increased
                   IAS functionality would strengthen oversight of component agency activities.
                   By the end of the 4th quarter of FY 2007, OPPM plans to achieve additional
                   controls by:

                   •   issuing policy to increase agency contract review boards specifically
                       addressing solicitation review and proposal evaluation;
                   •   issuing policy to strengthen agency acquisition strategy planning;
                   •   establishing periodic reporting to OPPM of agency’s results from these
                       review boards; and
                   •   issuing policy on the importance of monitoring contractor performance
                       and use of the Contractor Performance System database.

                   OIG Position

                   We concur with the agency response for this recommendation and have
                   reached management decision.
USDA/OIG-AUDIT No. 89017-01-Hy                                                             Page 5
Recommendation 2

                   Expand the data handling capabilities of the AWTS to ensure it can handle
                   the volume of records from all component agencies.

                   Agency Response

                   OPPM will review the workforce data volume requirements, and work to
                   ensure that AWTS or a replacement system can handle an expanded
                   capability by the 4th quarter, FY 2007.

                   OIG Position

                   We concur with the agency response for this recommendation and have
                   reached management decision.




USDA/OIG-AUDIT No. 89017-01-Hy                                                       Page 6
Scope and Methodology

                   Our review included the controls established for the corporate oversight of
                   USDA component agency procurement activities by OPPM. Overall in
                   FY 2005, USDA obligated approximately $4.4 billion for procurement
                   activity. Commodity procurements and purchase card operations accounted
                   for $2.7 billion and were not included in this review as these segments of
                   USDA operations have been recently reviewed by OIG. This audit assessed
                   the adequacy of OPPM’s system of controls, including oversight, over the
                   procurement activities of USDA component agencies for non-commodity and
                   non-purchase card activities. We conducted our review at OPPM
                   Headquarters located in Washington, D.C. We reviewed the controls in place
                   at the time of our audit. We conducted our review through interviews and
                   review of Federal and USDA regulations, procedures, and records. To
                   accomplish our audit objectives, we:

                   • Reviewed Federal and Departmental mandated acquisition regulations,
                     policies, and procedures;

                   • Interviewed responsible OPPM officials and staff to obtain an
                     understanding of how they performed their responsibilities for acquisition
                     management within USDA;

                   • Analyzed procurement obligation and acquisition workforce data; and

                   • Reviewed previous GAO and OIG audits of USDA procurement activities.

                   Audit fieldwork was performed from April 2005 through October 2005.
                   Hurricane Katrina occurred during our fieldwork for this assignment. In
                   May 2006, we obtained information on the OPPM monitoring efforts for
                   USDA hurricane related procurement activity and information regarding the
                   overall amount of FY 2005 USDA procurement activity. OIG has ongoing
                   reviews of USDA Hurricane Relief activities; therefore, we did not include
                   the activities as part of this audit.

                   The audit was conducted in accordance with Generally Accepted
                   Government Auditing Standards.




USDA/OIG-AUDIT No. 89017-01-Hy                                                          Page 7
Exhibit A – Agency Response
                                 Exhibit A – Page 1 of 4




USDA/OIG-AUDIT No. 89017-01-Hy                 Page 8
                                 Exhibit A – Page 2 of 4




USDA/OIG-AUDIT No. 89017-01-Hy                 Page 9
                                 Exhibit A – Page 3 of 4




USDA/OIG-AUDIT No. 89017-01-Hy                Page 10
                                 Exhibit A – Page 4 of 4




USDA/OIG-AUDIT No. 89017-01-Hy                Page 11
